<html>
<title> - NOMINATIONS OF RONALD D. MCCRAY, CORINNE A. BECKWITH, AND CATHARINE F. EASTERLY</title>
<body><pre>[Senate Hearing 112-316]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 112-316

NOMINATIONS OF RONALD D. MCCRAY, CORINNE A. BECKWITH, AND CATHARINE F. 
                                EASTERLY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE



                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

     NOMINATIONS OF RONALD D. MCCRAY TO BE A MEMBER OF THE FEDERAL 
 RETIREMENT THRIFT INVESTMENT BOARD; CORINNE A. BECKWITH AND CATHARINE 
F. EASTERLY TO BE ASSOCIATE JUDGES OF THE DISTRICT OF COLUMBIA COURT OF 
                                APPEALS

                           SEPTEMBER 23, 2011

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
72-483 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001











        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  JERRY MORAN, Kansas

                  Michael L. Alexander, Staff Director
               Kristine V. Lam, Professional Staff Member
  Christine K. West, Counsel, Subcommittee on Oversight of Government 
                              Management,
          the Federal Workforce, and the District of Columbia
               Nicholas A. Rossi, Minority Staff Director
                   Jennifer L. Tarr, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk
                 Patricia R. Hogan, Publications Clerk
                    Laura W. Kilbride, Hearing Clerk











                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Akaka................................................     1
Prepared statement:
    Senator Akaka................................................    13

                               WITNESSES
                       Friday, September 23, 2011

Ronald D. McCray to be a Member of the Federal Retirement Thrift 
  Investment Board...............................................     2
Corinne A. Beckwith to be an Associate Judge of the District of 
  Columbia Court of Appeals......................................     8
Catharine F. Easterly to be an Associate Judge of the District of 
  Columbia Court of Appeals......................................     9

                     Alphabetical List of Witnesses

Beckwith, Corinne A.:
    Testimony....................................................     8
    Prepared statement...........................................    32
    Biographical and financial information.......................    33
Easterly, Catharine F.:
    Testimony....................................................     9
    Prepared statement...........................................    59
    Biographical and financial information.......................    60
McCray, Ronald D.:
    Testimony....................................................     2
    Prepared statement...........................................    14
    Biographical and financial information.......................    16
    Responses to pre-hearing questions for the Record............    22
    Letter from the Office of Government Ethics..................    30
    Responses to post-hearing questions for the Record...........    31

                                APPENDIX

Eleanor Holmes Norton, Delegate of the District of Columbia, 
  statement for the Record.......................................    85
Paul Strauss, U.S. Shadow Senator for the District of Columbia, 
  statement for the Record.......................................    86

 
NOMINATIONS OF RONALD D. MCCRAY, CORINNE A. BECKWITH, AND CATHARINE F. 
                                EASTERLY

                              ----------                              


                       FRIDAY, SEPTEMBER 23, 2011

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:06 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, presiding.
    Present: Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. This hearing will come to order. Aloha and 
welcome to everyone here.
    Today, the Committee on Homeland Security and Governmental 
Affairs meets to consider the nomination of Ronald McCray to be 
a member of the Federal Retirement Thrift Investment Board 
(FRTIB).
    On the second panel, we will consider the nominations of 
Corinne Beckwith and Catharine Easterly to be Associate Judges 
of the District of Columbia Court of Appeals.
    The Federal Retirement Thrift Investment Board was 
established in 1986 by legislation that modernized the Federal 
retirement system and created the Thrift Savings Plan (TSP), 
which is a retirement savings plan similar to a 401(k) plan for 
the Federal employees and military service members.
    Mr. McCray is well qualified to join this board. He has 
over 20 years of experience in overseeing and monitoring 
retirement systems for many large private sector companies and 
universities, and currently, he is a member of the Board of 
Directors for A.H. Belo Corporation, a Texas-based newspaper 
company. In that role, he is responsible for the oversight of 
the company's retirement and pension plans.
    Mr. McCray, I want to congratulate you on your nomination. 
I understand that you have some family and friends in 
attendance and I want to give you the opportunity to introduce 
them to the Committee.
    Mr. McCray. Aloha, Senator.
    Senator Akaka. Aloha.
    Mr. McCray. Thank you very much.
    I will introduce my family. From your left to right are my 
Aunt Lucille, my mother, Vivian, my daughter Morgan, and my 
sister Donna. To my left, my sister Jonnie, my cousin Jackie, 
my cousin Don, my friend Andrea, and my best friend, Alfredo.
    Senator Akaka. Terrific. Thank you very much again to your 
family.
    Mr. McCray. I should also add a former employee, Dick 
Kimberly, is here.
    Senator Akaka. I want to say hello to you all and welcome 
to the Committee.
    I just know by the number of people here that your family 
and friends must be very proud of what you have accomplished.
    Our nominee has filed responses to a biographical and 
financial questionnaire and answered prehearing questions 
submitted by the Committee.
    So, without objection, this information will be made part 
of the hearing record with the exception of the financial 
information, which is on file and available for public 
inspection at the Committee office.
    Our Committee rules require that witnesses at nomination 
hearings give their testimony under oath. So, I ask you, Mr. 
McCray, to please rise and raise your right hand. Do you 
solemnly swear that the testimony you are about to give this 
Committee is the truth, the whole truth, and nothing but the 
truth, so help you, God.
    Mr. McCray. I do.
    Senator Akaka. Thank you. Let it be noted for the record 
that the witness answered in the affirmative.
    Mr. McCray, please proceed with your statement.

TESTIMONY OF RONALD D. MCCRAY \1\ TO BE A MEMBER OF THE FEDERAL 
               RETIREMENT THRIFT INVESTMENT BOARD

    Mr. McCray. Thank you again, Mr. Chairman, and thank you to 
the Committee and its staff as well.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. McCray appears in the Appendix on 
page 14.
---------------------------------------------------------------------------
    I am honored to be here before you today as a nominee to be 
a member of the Federal Retirement Thrift Investment Board. I 
am also deeply grateful for President Obama's confidence in 
nominating me for this position.
    While several dear friends and family are here, many could 
not attend because conflicts prevented them from attending, but 
I know they are here in spirit.
    My sisters and I lost our father when he had a fatal heart 
attack when I was 5 years old. Today, coincidentally, would 
have been his 76th birthday.
    As a result of his untimely death, my mother raised four 
children as a single mother in the public housing projects in 
the Bronx, New York. Her example inspired each of my sisters 
and me to obtain college and professional degrees. It is her 
example and it is his memory that I honor today.
    As you know, the FRTIB was established to provide guidance 
and oversight for the Thrift Savings Plan. This plan is the 
primary pension fund for Federal employees. I believe I was 
nominated to be a member of the FRTIB due to my experience with 
pension funds, boards of directors, and my professional 
background and education. I have had oversight responsibility 
for corporate and university investments, including pension 
oversight for plans covering tens of thousands of employees, 
the establishment of investment policies, the evaluation of 
pension staff, investment performance, and outside investment 
managers.
    For most of my career, I worked as a senior executive and 
lawyer for Kimberly-Clark Corporation, which has over 30,000 
employees. During that time, I was responsible for, among other 
things, pension plans holding more than $2 billion in assets. 
As such, my responsibilities included oversight of investments, 
setting investment policy, the staff responsible for those 
investments and for hiring and evaluating outside investment 
managers.
    As chief administrative officer for Nike, Inc., from 2007-
2009, I had oversight responsibility for investment of the 
company's more than $2 billion of cash assets.
    As a corporate director, I have been serving as a member of 
the Board of Directors for A.H. Belo Corp., a Dallas-based 
newspaper organization, since 2010. In that role, I have 
oversight responsibilities for the company's retirement and 
pension plans covering over 2,000 employees.
    I previously served from 2003 to 2006 as a member of the 
Board of Directors for San Jose, California-based Knight 
Ridder, Inc., then the second largest newspaper organization in 
the Nation with a market capitalization of $6 billion and over 
4,000 employees. In that role, I had oversight responsibilities 
for that company's retirement plans.
    In addition to corporate boards, I currently serve on the 
Board of Trustees for Cornell University, the Visiting 
Committee of Harvard Law School, and the Board of Directors of 
the North Texas Chapter of the National Association of 
Corporate Directors.
    It is these roles with governing boards that have given me 
experience with oversight and fiduciary responsibilities for 
staff and investments; the need to reconcile the interests of 
various stakeholders, such as stockholders, bondholders, 
employees, communities, government, students, and faculty; and 
the imperative of collegial decisionmaking required of 
governing boards.
    If confirmed, I will draw on this experience overseeing 
pension funds as a corporate board member, corporate executive, 
lawyer, and investor to help oversee and strengthen the TSP. I 
would focus my energies on those matters required to keep the 
TSP a well run part of the Federal Employees Retirement System; 
such as cost, customer service, information technology, 
reasonable investment options, as well as transparency.
    Should I be confirmed, I look forward to working with the 
Members of the Committee and members of the Federal Retirement 
Thrift Investment Board to ensure that the TSP continues its 
important mission of providing for retirement for Federal 
employees.
    Thank you again for the opportunity to appear before you 
today. I would be happy to answer any questions.
    Senator Akaka. Thank you very much for your testimony, Mr. 
McCray.
    I will begin with the standard questions that this 
Committee asks of all nominees, and you have partially answered 
one of them.
    Is there anything you are aware of in your background that 
might present a conflict of interest with the duties of the 
office to which you have been nominated?
    Mr. McCray. Senator Akaka, I am not aware that there is 
anything in my background that would present such a conflict.
    As you may know, the Office of Government Ethics did point 
out to me that investments that I held in MetLife bonds would 
pose a potential conflict back in the spring and advised me 
that I would need to divest of those bonds within 90 days of 
any possible appointment. I sold those bonds last spring.
    Senator Akaka. Thank you.
    Do you know of anything personal or otherwise that would in 
any way prevent you from fully and honorably discharging the 
responsibilities of the office to which you have been 
nominated?
    Mr. McCray. I do not.
    Senator Akaka. Thank you.
    Finally, do you agree without reservation to respond to any 
reasonable summons to appear and testify before any duly 
constituted committee of Congress if you are confirmed?
    Mr. McCray. I do.
    Senator Akaka. Thank you.
    Mr. McCray, you have a distinguished private-sector career, 
but serving on a government retirement board would be a new 
role for you.
    As you know, the Federal Retirement Thrift Investment Board 
is responsible for making investment and policy decisions that 
affect millions of Federal employees and retirees.
    Please discuss how your experience has prepared you to 
serve on this board.
    Mr. McCray. I would be happy to. I believe that my 
experience with pension funds as I described earlier has given 
me some insight into how defined contribution plans work.
    I believe I am reasonably current on the best practices 
from the standpoint of transparency, communication, investment 
options, fiduciary standards that are required for defined 
contribution plans.
    I am keenly aware that most of my experience, of course, is 
in the private sector, not the public sector. It is my 
commitment to talk to current members of the board as well as 
members of the staff, the Committee, and to consult with the 
Employee Thrift Advisory Council (ETAC) to give myself a better 
feel for the context in which the Thrift Savings Plan operates 
as a public sector defined contribution plan.
    Senator Akaka. Thank you.
    Mr. McCray, I am a strong advocate for improving financial 
literacy, and I have organized hearings on the issue since the 
year 2004.
    Please give specific examples of the steps you will take as 
a board member to increase participants' education about their 
investment options.
    Mr. McCray. Yes. There are a couple of things that I would 
do toward the end of increasing investor participants' 
financial literacy. The first thing I might do would be to get 
a sense, by census or otherwise, as to what the current level 
of financial literacy might be among the 4 million or so 
participants. I do not have a feel for that today.
    Again, I would consult with the various stakeholders as a 
matter of gaining that insight. To the extent there is 
information that helps give a baseline understanding, I would 
be happy to see that. To the extent that information is dated, 
I might suggest that it be updated.
    As I look at the census data, Senator, I would try to 
understand what opportunities there might be to enhance 
financial literacy for participants.
    I believe and agree with you that financial literacy is the 
secret sauce that makes the defined contribution plan work.
    To the extent that participants are better versed in terms 
of their retirement plans, financial options, and so forth, the 
pension plan will serve its purpose.
    I would look also at technology to see what technology 
solutions might be available to give participants ease of 
access to information about the plan. You can think of 
webinars, for instance, in which you might offer instruction to 
employees to increase their financial literacy. Of course, you 
can think about emails, or you might think about in-person 
consultations, those kinds of things.
    Senator Akaka. Thank you.
    Mr. McCray, as you noted in a number of your answers to 
this Committee's questionnaire, you are not familiar with many 
of the administrative aspects of the Thrift Savings Plan. If 
confirmed, how would you familiarize yourself with the TSP's 
administrative practices and policies?
    Mr. McCray. It is my practice--a discipline when I take on 
any new role--although I may have a point of view, to take a 
survey of the land, and in consultation with the ETAC, the 
staff, perhaps employees of the Committee, to mine those 
conversations to increase my understanding about the 
administrative polices and practices of the TSP.
    Senator Akaka. As you know, these are challenging economic 
times. Many participants in defined contribution plans have 
seen a decrease in their portfolios, creating uncertainty for 
those who are close to retirement.
    What steps would you take to make sure that the TSP is 
producing optimal returns for its investors?
    Mr. McCray. To ensure that the TSP is producing optimal 
returns, I think you start with, as we talked about earlier, 
participant education.
    Assuming that you can put participant education at an 
appropriate level, I think the next question becomes what are 
the tools that are available for the participants to use their 
education toward their retirement objectives.
    I think it is fairly common practice in financial planning 
for retirement and otherwise to develop a plan, and I think 
part of the literacy education would be to help participants 
develop a plan for their retirement and know that should they 
adhere to that plan, more likely than not they will be fine.
    In that case, the tumult in the markets to which you 
referred a second ago, although it will be felt by 
participants, I think will be less traumatic to participants as 
long as they understand the plan on which they are pursuing 
their retirement objectives.
    Senator Akaka. Mr. McCray, employee participation in any 
retirement savings plan is sometimes a challenge, especially 
among younger employees.
    In 2009, Congress passed language to automatically enroll 
employees in the TSP as well as provide immediate agency 
matching contributions.
    How will you build on Congress' efforts to increase 
employee participation?
    Mr. McCray. First of all, I would applaud Congress' efforts 
to increase employee participation. I would say, as a back 
drop, that as our Nation requires employees to take on more 
responsibility for their own retirement, it is imperative for 
employers such as the government to help those employees, I 
think, as somewhat of an ethical, moral matter.
    To that end, I would try to understand, Senator, the 
reasons that those who are not anticipating are not 
participating and try to tailor communications in substance and 
form that might entice those people to participate more fully.
    Senator Akaka. This is my final question to you, Mr. 
McCray. What are your top three priorities if you are confirmed 
as a board member?
    Mr. McCray. At this time, my top three priorities are, 
first, to maintain the low-cost reputation of the TSP. A second 
priority would be to assure that the participants have 
available to them reasonable investment options, and a third 
priority would be to assure that we have the technology in 
place to support all of that because all of that gets tied 
together by technology.
    I would add that those are my priorities based on the study 
that I have done to date, and I would hope to refine those, 
should I be confirmed, in consultation with my fellow board 
members and other stakeholders, such as Congress.
    Senator Akaka. I want to thank you very much for your 
responses to my questions. I want to wish you and your family 
well in this endeavor; and without question, your background 
certainly is helpful in this particular position.
    So again, I want to thank you so much for being here. We 
will move forward in the confirmation process here in the 
Committee and in the Senate.
    Thank you and your family very much. We certainly honor 
your Dad, too, and I know he has made a huge difference despite 
his absence, but your mother should be given a medal for 
bringing you folks up.
    Mr. McCray. I agree. Thank you so much, Senator. Thank you 
for your time.
    Senator Akaka. Thank you, all of you.
    So, let me call up the second panel. I want to welcome 
everyone to the second part of today's proceedings as we 
consider the nominations of Corinne Beckwith and Catharine 
Easterly to be Associate Judges of the District of Columbia 
Court of Appeals.
    We consistently receive excellent D.C. court candidates 
nominated by the President from those recommended by the 
nonpartisan Judicial Nomination Commission. I am confident 
that, if confirmed, these nominees will join others who have 
appeared before us in making valuable contributions to the 
District.
    Both of our nominees have strong legal backgrounds and have 
devoted much of their careers to public service. Ms. Beckwith 
is currently a supervising attorney in the Appellate Division 
of the D.C. Public Defender Service (PDS).
    Before that, she was an attorney with the Michigan State 
Appellate Defender Office, and she clerked for the U.S. Supreme 
Court and Federal Court of Appeals for the Seventh Circuit.
    Ms. Easterly has been with the Special Litigation Division 
of the D.C. Public Defender Service since 2003 and was a State 
appellate defender as well as a civil litigator before that.
    I believe these nominees have much to offer to the D.C. 
Court of Appeals, and I hope we can act quickly to confirm 
them.
    I understand you both have loved ones here with you today, 
and I would like to give you an opportunity to introduce them 
to the Committee at this time.
    Ms. Beckwith, would you please introduce your family and 
guests.
    Ms. Beckwith. Thank you, Mr. Chairman.
    I have with me my husband, Brent Futrell, my brother, Aaron 
Beckwith, and a lot of family watching from Michigan, and many 
colleagues from the Public Defender Service are also here. 
Thank you.
    Senator Akaka. Thank you. Ms. Easterly, will you please 
introduce your family and guests.
    Ms. Easterly. Thank you, Senator. I have with me my 
husband, Aaron Zebley; my two daughters, Clara and Daphne; my 
parents, Harry and Patsy Easterly; my sister, Rachel; and my 
younger brother Noah and his wife, Carly. My older brother was 
not able to make it. My technology-savvy grandmother, however, 
is watching online.
    Senator Akaka. Thank you so much to all of you for being 
here to give the nominees support. We really appreciate seeing 
that as well. I am sure your loved ones are proud of you and 
your accomplishments and look forward to this new chapter in 
your lives.
    Each nominee has filed responses to a biographical and 
financial questionnaire submitted by the Committee. Without 
objection, this information will be made a part of the hearing 
record with the exception of financial data, which will be kept 
on file and made available for public inspection in the 
Committee office.
    Our Committee rules require that all witnesses at 
nomination hearings give their testimony under oath. So, I ask 
you to please stand and raise your right hand.
    Do you solemnly swear that the testimony you are about to 
give this Committee is the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Ms. Beckwith. I do.
    Ms. Easterly. I do.
    Senator Akaka. Thank you. Please note for the record that 
the witnesses answered in the affirmative.
    Ms. Beckwith, will you please proceed with your statement.

 TESTIMONY OF CORINNE A. BECKWITH \1\ TO BE AN ASSOCIATE JUDGE 
          OF THE DISTRICT OF COLUMBIA COURT OF APPEALS

    Ms. Beckwith. Thank you. Mr. Chairman, I am greatly honored 
to appear before you today as you consider my nomination to be 
an Associate Judge on the District of Columbia Court of 
Appeals. I am thankful to the Judicial Nomination Commission 
for selecting me and to President Barack Obama for nominating 
me. I would also like to thank you, Mr. Chairman, and this 
Committee for holding this hearing and the Committee staff for 
all of the work that goes into making these hearings possible.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Beckwith appears in the Appendix 
on page 31.
---------------------------------------------------------------------------
    At the outset, I would like to acknowledge and thank my 
family and friends who are here and who are watching from home 
or from their offices. You have met my husband, Brent Futrell, 
and my brother, Aaron Beckwith, who are both here with me 
today. And watching from Michigan are my mother, Alice 
Beckwith; my father and stepmother, Larry and Nancy Beckwith; 
my three other brothers, David, Joe, and Adam Beckwith; my 
sister-in-law, Chrissy Beckwith; my nieces, Rachel and Sophia 
Beckwith; and a slew of beloved aunts, uncles, and cousins who 
have encouraged and tolerated me over the years. I also feel 
lucky to have so many friends and colleagues here today.
    I grew up in a working class family in Michigan, and I was 
the first in my family to go to college. I pursued a career as 
a reporter at a small-town newspaper before changing course and 
attending law school at the University of Michigan. After 
clerking for two exceptional judges--Judge Richard Cudahy on 
the Seventh Circuit in Chicago and Justice John Paul Stevens at 
the U.S. Supreme Court--I began my legal career as a public 
defender in Detroit, handling a huge caseload of the criminal 
appeals of people who could not afford to hire a lawyer.
    A few years later, I returned here to the District of 
Columbia to join the Appellate Division of the Public Defender 
Service, and for the past 12 years, I have practiced almost 
exclusively in the D.C. Court of Appeals, again representing 
indigent people facing serious criminal charges.
    Particularly given the high level of practice in that 
court, serving the D.C. community in this way has been beyond 
gratifying, and it is my commitment to public service that now 
motivates me to seek appointment to the D.C. Court of Appeals--
the court where I learned so much of what I know about the law 
and good lawyering.
    Because I have filed so many briefs and argued so many 
cases in the D.C. Court of Appeals, and because I have so much 
respect for the talented and thoughtful judges on that court, 
it is an extraordinary honor to be nominated for a position 
among those judges, and I am truly humbled by it.
    Thank you, again, Mr. Chairman, for considering my 
nomination. I welcome your questions and will do my best to 
answer them.
    Senator Akaka. Thank you very much, Ms. Beckwith.
    Ms. Easterly, please proceed with your statement.

TESTIMONY OF CATHARINE F. EASTERLY \1\ TO BE AN ASSOCIATE JUDGE 
          OF THE DISTRICT OF COLUMBIA COURT OF APPEALS

    Ms. Easterly. Mr. Chairman, I am grateful for the 
opportunity to appear before you today as a nominee to be an 
Associate Judge on the District of Columbia Court of Appeals. I 
want to thank President Barack Obama and the District of 
Columbia Judicial Nomination Commission, in particular, its 
chair, the Hon. Emmet G. Sullivan, for this honor.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Easterly appears in the Appendix 
on page 58.
---------------------------------------------------------------------------
    I also want to thank the Committee and your staff for 
considering my nomination so expeditiously at a time when there 
are many pressing matters demanding your attention.
    You have met my family. I am grateful for their presence 
here and all the opportunities that they have given me that 
have led me here today. A number of friends, colleagues, and 
mentors are also here. Suffice it to say, I would not be here 
without their support and guidance.
    Throughout my career, my abiding interest has been to work 
to promote fairness of process in our justice system, 
particularly for those least able to advocate for themselves. 
After graduating from law school, I worked for almost 5 years 
as an appellate public defender in New York City. I then moved 
to a law firm where I focused on civil litigation. In 2003, I 
joined the Special Litigation Division of the Public Defender 
Service for the District of Columbia. At PDS, I have had the 
unparalleled opportunity to apply my skills as an appellate 
defender and a civil litigator, and to identify and address 
complex, recurring issues that affect the fairness and 
efficiency of the District's criminal justice system.
    Putting the sum of my experiences here to use as a judge on 
the Court of Appeals, in service of the District of Columbia 
community, would be an honor and a privilege. Thank you for 
considering my nomination. I look forward to answering your 
questions.
    Senator Akaka. Thank you very much for your statement, Ms. 
Easterly. I will begin with the standard questions this 
Committee asks of all nominees, and I would like you both to 
answer each question.
    Is there anything you are aware of in your background that 
might present a conflict of interest with the duties of the 
office to which you have been nominated?
    Ms. Beckwith. No, Mr. Chairman.
    Ms. Easterly. No, Mr. Chairman.
    Senator Akaka. Do you know of anything personal or 
otherwise that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Ms. Beckwith. No, Mr. Chairman.
    Ms. Easterly. No, Mr. Chairman.
    Senator Akaka. Do you agree without reservation to respond 
to any reasonable summons to appear and testify before any duly 
constituted committee of Congress, if you are confirmed?
    Ms. Beckwith. Yes, sir.
    Ms. Easterly. I do, Mr. Chairman.
    Senator Akaka. Thank you very much.
    I see that you both spent a number of years with the D.C. 
Public Defender Service. I commend your decision to continue 
public service by joining the D.C. judicial system. Please 
elaborate on why you are seeking appointment to become an 
Associate Judge at this point in your career.
    Ms. Easterly, I would like you to answer first, followed by 
Ms. Beckwith.
    Ms. Easterly. I became a lawyer to do public service, and 
the bulk of my career has been focused on fairness of process 
issues, and that is what an appellate judge does. She serves 
the community by taking a step back to see if the law and the 
rules were followed and fairly applied, and I can think of no 
better way to continue my public service and to pursue my 
interest in fairness of process issues than by serving on the 
Court of Appeals for the District of Columbia.
    Senator Akaka. Ms. Beckwith.
    Ms. Beckwith. Thank you. I have seen the judges of this 
court in action over the years, and I think that the work they 
do and the work of the court is extremely important. I have a 
great deal of respect not only for the judges of the court, but 
for the court as an institution; and while I truly love my job 
as a criminal appellate lawyer, I am interested in playing a 
broader role in serving my community. I am also interested in 
having the opportunity to address a wider range of legal 
issues, something I enjoyed very much as a law clerk and 
something that I miss.
    Finally, I think that this position is a remarkably good 
fit for my skills and for my experience, and I think it is a 
very natural next step in my career should I be fortunate 
enough to be confirmed. Thank you.
    Senator Akaka. Ms. Beckwith, a judge is often challenged to 
rule on complex issues both quickly and correctly. Please 
describe how your experience qualifies you to confront this 
challenge.
    Ms. Beckwith. Well, I have a great deal of experience as a 
public defender handling very large caseloads. So, I have spent 
years having to kind of develop a comfort level with producing 
quality work under pressure. That is definitely something I 
have done throughout my career, and I think it takes hard work. 
It takes smart priorities. It takes efficiency and a sense of 
balance and perspective, but I think that my experience has 
definitely qualified me to do that.
    Senator Akaka. Ms. Easterly, the role of a judge is very 
different from the role of an advocate and will be new to you. 
Please discuss how you will transition to the role of an 
impartial decisionmaker.
    Ms. Easterly. I think the critical first step is to 
recognize that it is a very different job. I have been an 
advocate, taking a side for my client, zealously representing 
my client; and now, if I were confirmed, I would be assuming a 
new role of being the impartial arbiter whose job it is to 
completely familiarize herself with the record, to understand 
the applicable law, to look at the parties' pleadings, but then 
go beyond, if necessary, and come up with a well reasoned 
opinion.
    I do think that my experience as an advocate will assist me 
in this regard because I think the best advocates are the ones 
who can dispassionately look at their position and identify the 
weaknesses in their own arguments and the strengths in others.
    So, I think I can take those skills and, recognizing that I 
am serving a different role, apply them as a judge.
    Senator Akaka. Thank you.
    Ms. Beckwith, the Court of Appeals handles a heavy caseload 
and needs hard-working individuals like you. Please describe 
your management style, including the role you envision for law 
clerks in your chamber.
    Ms. Beckwith. I am not sure what my management style will 
be as a judge, but I know that I am a very hard worker. I 
actually enjoy working long hours and weekends, perhaps much to 
my husband's dismay. So, I think hard work will be the focus if 
I am fortunate enough to be confirmed.
    There is a lot to learn. So, I think that it will be 
important to consult with my colleagues and see how they have 
set up their chambers, how they maximize efficiency. It is 
definitely probably the greatest challenge in the Court of 
Appeals, managing the very large docket and the need to produce 
quality opinions very quickly and to manage that balance.
    So, I think working hard is the number one thing.
    Senator Akaka. Thank you.
    Let me follow up also with Ms. Easterly to respond to that 
question. Please describe how you would manage your chamber and 
delegate work.
    Ms. Easterly. I agree with Ms. Beckwith. I think that 
managing the workload for the Court of Appeals is the number 
one challenge. I think the key, at least from speaking to the 
judges who are currently on the court, is working hard but also 
working smart and doing the triage that you need to do to 
identify the cases that maybe really do not warrant much 
consideration, identifying the cases that are easily resolved, 
and then identifying the cases that really deserve some careful 
consideration, additional time.
    I have some experience doing that currently in my job where 
I have attorneys coming to me, bringing me cases and asking me 
to assist them, and I have to decide if this is something that 
I am going to have to devote a lot of resources to or something 
that I can assist them quickly with.
    So, I think that is the key--working hard and working 
smart.
    Senator Akaka. Thank you very much.
    This is my final question, and it is for both of you. 
During your years of practicing law, you have appeared before 
many judges and no doubt learned a great deal from observing 
them.
    Describe some of the qualities you hope to emulate as a 
judge and those you hope to avoid.
    Ms. Beckwith, please answer first followed by Ms. Easterly.
    Ms. Beckwith. Thank you, Mr. Chairman.
    I think the appropriate temperament of a judge includes the 
qualities of evenhandedness and impartiality, patience, 
humility, and respect not only for the law, but for the parties 
who come before you.
    I think most lawyers have encountered judges who earn the 
respect and admiration of all the parties who come before them. 
I think that is often due in part to, on the one hand, judges 
who are very scholarly and thoughtful and take the cases very 
seriously and everybody knows that by the way they are engaged 
in court and, on the other hand, simply treating people well.
    Those are the qualities that I would ascribe to and 
obviously would hope not to fall into any arrogance or anything 
not respecting the litigants who appear in the court.
    Senator Akaka. Thank you. Ms. Easterly.
    Ms. Easterly. Perhaps not surprisingly I agree with 
everything Ms. Beckwith said. I would just add that I think 
concretely one way to show respect for the parties who appear 
before you is to know the record, to be completely familiar 
with the facts, to have read the briefs carefully, and to give 
them that respect of having read their work product and taking 
it into consideration, and then to write a well-reasoned 
opinion that fully explains the reasons for your decision 
because someone is going to prevail and someone will not, and 
they both deserve a well-reasoned opinion for why you reached 
the outcome that you reached.
    Senator Akaka. Thank you so much for your responses and for 
your testimonies. There are no further questions at this time.
    Members of this Committee may submit additional statements 
or questions, which will be submitted to you in writing.
    The hearing record will remain open until the close of 
business on Monday, September 26.
    I would also like to note that Congresswoman Eleanor Holmes 
Norton and Paul Strauss submitted statements for the record in 
support of the D.C. nominees.\1\ I just wanted the nominees to 
know that.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Norton appears in the Appendix on 
page 85.
    \1\ The prepared statement of Mr. Strauss appears in the Appendix 
on page 86.
---------------------------------------------------------------------------
    May I see the hand of Paul Strauss? Thank you so much for 
your participation.
    It is my hope that this Committee and the Senate will be 
able to act quickly on your nominations. Thank you very much 
for being here. I thank your families, and I must say your 
daughters really behaved well.
    Ms. Easterly. They did a good job, did they not?
    Senator Akaka. Thank you. Whatever noise they make is music 
to my ears.
    Thank you again, everyone. This hearing is adjourned.
    [Whereupon, at 10:51 a.m., the Committee adjourned.]




                            A P P E N D I X

                              ----------                              



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
